                     -.   _. -.. - -.   .-.   - - -   -, .




                   QUALITY ASSURANCE 

                   PHYSICIAN OFFICE lABS




      SiIlV/CIS.

 l"




      "'''Ja



OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS

                                                       MARCH 1989
                  QUALITY ASSURANCE 

                  PHYSICIAN OFFICE LABS




                        Richard P. Kusserow
                        INSPECTOR GENERAL




OAI-05-88-00330
                                              MARCH 1989
                           .......... ........
                       ..............  .......................       ...........  ...........................................
                                                                ...........................
                                               .........................     ....... .......
                                                                                 .......     .................. ..........................
                                                    ........................................................................
                                                                              ..................................
                                                                                         ..............                           ........




                                                TABLE OF CONTENTS

 EXECUTIVE SUMMARY

 NTRO D UCTION
    Pu rpose                                                                               ........................................... 1


     Backg ro und ......... ............... ............                                            .................................. 1

                                                                                                              ......................... 1
    Scope and Methodology

 FINDINGS
    Estimates of the Number of POLs
    and the Type of Testing Performed in Them
    Vary Widely...................... ...................... 


    Quality of POL Testing Concerns Respondents;
    Many Believe the Greatest Risk
    Comes From the Lack of Training
    and Attention to Quality Control.................................................................... 6

   Few States Regulate POLs;
   OBRA of 1987 Is Viewed as Well- Meaning
   But Impractical... .................... 

                                                                             ................................... ................... 1 



RECOMMENDATIONS
   Recent Events
   Draft Recommendations                                                                               .......... 1 6


                              .................................................
   Long Range Quality Assurance           Planning                              ....................... ........ 16

   niUal POL Regulation .................................................................... ................. 16

   Rationale for Draft Recommendations 

                                                                          .................................................. 20

APPENDICES
   A. Contacts
   B. POL Survey Methodology
   C. Medicare Tests Biled by POLs During 1985- 1986
   D. States Regulating Laboratories

BIBLIOGRAPHY
                                  EXECUTIVE SUMMARY


 PURPOSE

 This inspection examnes the characteristics of physician office laboratories (POLs),
                                                                                         discLlsses
 conce:-ns regarding the quality of   testing in POLs, and evaluates State and Federal effort     to
 regulate them.

 BACKGROUND

 Physicians operatig office laboratories conduct approximately 25 percent of all laboratory
 testing in the countr. Sixteen States have laws pertning to them. About $20 billion is
 nationally on laboratory services annually, of which POLs receive $5 bilion.            spenr
                                                                                  Each year
 Medicare pays POLs over $400 milion. Pror to 1987
                                                        , neither the Clinical Laboratories   I
 provement Act of 1967 , which covers interstate laboratory activities, nor the Medicare
 program , which certfies laboratories for payment , regulated-the vast majority of POLs.

The quality of testing in unregulated POLs concerned Congress and orhers involved with the
laboratory community. Consequently, Congress mandated in the Omnibus Budget Reconcilia­
tion Act (OBRA) of 1987 that , effective Januar 1, 1990 , POLs performng over 5
                                                                                000 tests a
year meet Medicare quality standards as established by the Secretar.

In October 1988, following a series of congrssional hearngs regarding
                                                                        laboratory issues and
release of our drt report, the Clinical Laboratory Improvement Amendments (CLIA) of
were enacted. While OBRA of 1987 mandates regulation of only high volume POLs billing     1988
Medicare , the CLIA of 1988 requirs all laboratories, including POLs, to be regulated based
on complexity of testing rather than size or volume.

METHODOLOGY

Information was gathered though interviews with State and Federal offcials, national associa­
tions representing the medical and laboratory communities, and manufacturers of laboratory
equipment. Prvious studies, Federal reports andjournal
                                                           aricles were reviewed. In addition
a national survey of 200 randomly selected physicians ' offices was conducted to estimJ(
                                                                                           how
many POLs are operating in the countr.

This report reflects data collection and analysis performed prior to the passage of CLIA of
1988.
    FINDINGS

   Estimates of the number of POLS and the type of testing perfonned in them
                                                                                          varies widely.


             Based on our national surey,   we estimate there are approximately 98,400 POL sites in
             the countr. Previous estimates var     from 20, 000to 200, 000 due to: (1) lack of a
             unifonn State and Federal POL definition
                                                      , and (2) dependence on physician
             self-reporting.

            The complexity of testing performed in POLs vares widely, as does the type of
            equipment being used. This is largely because there are no restrctions on the type of
            testig POLs can perform.

 Quality of POL testing concerns respondents; many believe the greatest risk comes from
 lack of training and attention to quality
                                           control.

           Quality of testing in POLs concerns all bur a few of the 79 respondents.
           qualifications , training and the lack of proficiency testing                Staff
                                                                         ar their primary concerns.
           There is no consensus regarding whether POLs should be held to the same Medicare
           standards as Independent Labs (lLs).

          Respondents believe the greatest ri'sk of test error comes from the operator
          training and attention to quality control                                        s lack of
                                                      , rather than from the equipment itself.

          Efforts by the private sector to address the quality of testing in POLs have nor been
          parcularly effective because partcipation is voluntary.

Few states regulate POLS; OBRA of 

                                            1987   is viewed as well-meaning but impractical.
         Thiny- four States do nor regulate POLs. They cite lack
         as the most common reason for lack of regulation.       of legislative support or funding


        Sixteen States have legislation pertaining to POLs, although five have nor fully
        implemented their laws. These State programs are
                                                            nor uniform and most exempt large
        numbers of POLs from regulation. Identification of POLs is the most often cited
        problem.

        Many respondents believe that OBRA of 1987 is a well-meaning attempt to regulate
       POLs. However, they ar concerned about
                                                  the practicality of implementing the statute.
       If POLs performng over 5 000 tests are held to the same Medicare standards as ILs
       estimate the annual cost of implementing the OBRA of 1987 provision to be           , we
       approximately $63 millon. Estimates
                                                   will var, depending on how " POL" and "
       are defined                                                                             test
        Many respondents believe quality standards, based on complexity of testing, shouid
        apply uniformy to all laboratOries.

 RECOMMENDATIONS

 Follo\ving the Inspector General' s congressional testimony regarding POLs and the release of
 our draft report in June 1988 , Congress passed and the
                                                         Prsident signed into law CLIA of
 1988 (P.L. 100- 578). These ameIfdments incorporate our draft recommendations    by mandat-
 Ing:

             that all laboratories be regulated based on complexity of testing;

             that all POLs register and meet certain stadards and inspection
                                                                                  requirements as
             appropriate; and

             that a registration fee be imposed on all laboratories which will provide funding
             for the laboratory registration and inspection pregram and will save the Depart­
             ment millions of dollars in operating costs.

Our POL recommendations wil be implemented under
                                                     the Public Health Service Act , rather
than under the Medicar statutes which was our original intent. The recommendations,    as
they appeared in the drt report, ar contaied on pages 19-
                                                           23 of the report. Specific discLls­
sion regardig how these amendments wil effect POLs
                                                      biling Medicare are also included.
We wish to than al who commented on our draft report. Many of the suggestions to
clarfy and strngthen the text have been included in the fmal report.             help
                                                       INTRODUCTION


    PURPOSE

   The purpose of this inspection is to: (1) identify physician office laboratory (POL) characteris­
   tics, (2) provide an overview of quality assurance in POLs
                                                               , (3) discuss State experiences in
   regularing POLs, and (4) identify and evaluate Federal strategies being developed to help en­
   sure accurate laboratory testing in POLs.

   BACKGROUND

   This report reflects data collection and analysis performed prior to the passage of the Clinical
   Laboratory Improvement Amendmenrs (CLIA) of 1988. The draft report was released to the
   public at the congrssional hearng concerning laboratory legislation. For further information
   regarding CLIA of 1988, refer to the recommendation section of this report.

  Industr estiates of POLs operating in the countr range
                                                            frm as low as 20 000 to as high
  200, 000 with a projected growth rate of 16 percent annually through
                                                                       1990. The Health Care

  Financing Admnistration (HCFA) estimates the number of POLs to be about 100
                                                                                      000. The

  laboratory industr estimates that testing POLs represents about 25 percent of the laboratOry
  market , resulting in about $5 billion in payment to physicians for these services. Medicare
  share represents over $400 million annually.



 The following char provides information regardig Medicare
                                                             s 1985 outpatient laboratory
 payments, volume of services, and average payment per service. Hospital inpatient and out­
 patient laboratory services are excluded from this data.



                        MEDICARE PART B                1985   LABORATORY STATISTICS

                                                                        LABS

     TESTING SITE                                ILs                    POLs            OTHER


          Test Volume                      7 Millon               58. 7 Million       5 Million
          Total Payment                   $510 Million            $425 Millon     $201 Million
          Average Pay-
                   $10.                    $7.             $19.
          ment


SOURCE:          Part B Medicare annual data (BMAD)fi/e.
 Currently, 16 States have laws governing POLs; however, 5 of these have nOt fully imple­
 mented their laws. Thiry- four States do nOt regulate POLs. Sixteen of these 34 non-regu!at-
 ing States regulate laboratory sites that conduct certain types of testing such as premarital
 syphilis, drgs and AIDS. The extent to which these tests ar being done in POLs is not
 known.

 Federal regulation of laboratOries   is governed by title 18 of the Social Security Act and the
 Clinical LaboratOries Improveme!1t Act of 1967. Title 18 requires that hospitals and inde­
 pendent laboratOries meet certai conditions of coverage in order to receive reimbursement
 under Medicare and Medicaid, and CLIA regulates interstate laboratory activities. BOth laws
 exempt the vast majority of POLs from regulation. Medicare regulates POLs that accept more
 than 99 referrals , in a paricular category of laboratOry testing during a calendar year. The
 CLIA precludes regulation of physicians ' office laboratories that perform testing for their
                                                                                               O\vn
 patients but nOt physicians who accept and test specimens on referral.

Although the majority of POLs have never been regulated by the Federal Government,
Medicare legislation over the last 5 years has affected them dramatically and encouraged their
growth. When the Medicar program began in 1965 , physicians were allowed to bil for
laboratOry services which they performed in their offices and for laboratOry services they pur­
chased from independent laboratories (ILs). The ILs typically discoumed their charges to
physicians. Many physicians " marked up " the charges they incurred from ILs, creating higher
costs for consumersn including Medicare--and higher profits for themselves. Physicians jus­
tified charging a higher price to their patients and third- pary insurers by claiming the markup
was an interpretation fee. Physician markups were prevalent despite HCFA
                                                                                and American
Medical Association policies that physicians should nOt profit from work performed by
                                                                                           Others.

The Omnibus Budget Reconciliation Act (OBRA) of 1980 tred to eliminate markups on pur­
chased laboratory services by requiring physicians to disclose the actual cost df services pur­
chased from ILs. Enforcement of this law was difficult and many physicians continued to
purchase laboratory services at discounted prices and bill at marked up prices. Other
physicians began operating their own laboratOries or offered expanded laboratory services to
preserve their profits and avoid violating the law.

In 1983, the Medicare Prospective Payment System was implemented. Laboratory services
performed by hospitals on their inpatients were included in the diagnosis related group (DRG)
payment. Thus, the more effectively hospitas contaied laboratOry costs, the more profit they
made from the DRG payment.

Hospital laboratories became cost centers instead of revenue centers. This resulted in the fol­
lowing: (1) physicians began performng preadmission and post- hospital laboratory testing
procedures that were previously done in hospitals; and (2) hospitals reduced purchases of
laboratory equipment which caused manufacturers to focus their equipment sales on the POL
and home testing markets.
 In 1984 ,   Congress again tred to address the problem of physician laboratOry markups. . The
 Omnibus Deficit Reduction Act of 1984 prohibited physicians from billing for laboratory
 work they did not perform. It also established regional fee schedules (carer specific) for
 reimbursement of Medicare laboratory services performed by ILs or hospital laboratOries :lnd
 required them to accept assignment for Medicare services. In other words , hospitals and ILs
 could not collect more than the amount Medicare recognized as reasonable for a laboratOry
 procedure. P ysicians were exempt from the mandatOry assignment requirement. ServIces
 performed in POLs were paid at 80 percent of the established regional fee schedules, \vhile
 physicians who submitted assigned claims were paid 100 percent of the schedules.

 During par of 1984 ,reimbursement for physician services was frozen. LaboratOry services
 biled by physicians were not subject to the freeze. Therefore, increasing their laboratory ser­
 vices was one way physicians could recoup lost revenues.

Other factors besides Federal regulation have influenced the growth in POL testing: (1) con­
venience afforded the physician and patient; (2) quick turnaround time of test results which
pemrts expeditious treatment decisions; (3) developmentpfreasonable priced, " user frie'
                                                                                          hdly.
automated , desktop analyzers and (4) increased competition among physicians which en­
couraged them to offer a broader rage of patient services.

The regulated laboratOry industr  and others expressed concern to Congress that these
                                                                                         factOrs
and Federal regulations had resulted in a restrcruring of the clinical laboratOry industry which
gave POLs an unfai market advantage. Consequently, milions of laboratory tests, once per­
formed in ILs and hospitals, have shifted to non-regulated settings primarly under the control
of physicians. Not only were POLs not subject to the same payment provisions as ILs and
hospitals, they were also exempt from Medicare proficiency testing, personnel , health and
safety, and record stadards.

Congress responded by including in the Consolidated Omnibus Budget Reconciliation Act
(COBRA) of 1985 and the Omnibus Budget Reconciliation Act of 1986 , provisions which sub­
jected services performed in POLs to the same percentage of regional fee schedules in effect
for independent and hospital laboratories. Prviously,  fees were set at 60 percent of the
prevailing charge levels for tests performed by ILs and by physicians in their offices, and ar
62 percent of prevailng charge levels for tests performed by a hospital laboratOry for out­
patients. They also required POLs to accept assignment, and mandated a move to eventually
brig all laboratories under a national fee schedule. In addition , COBRA of 1985 also re­
quird the Secretar of Health and Human Services to submit to Congress a report on POLs.
and to discuss appropriate quality standards that might be imposed on them.

The Omnibus Budget Reconciliation Act of 1987 mandated that the Secretar of Health and
Human Services implement Medicare quality standards for POLs performing more than s.
                                                                                          noo
tests per year by Januar 1 , 1990. Orginally, there was some uncertainty as to whether ' high
volume " POLs would have to meet the same Medicare standards as ILs or whether the
Secretar had some flexibility in establishing POL standards. The HCFA believes the latter
be tre.

 SCOPE AND METHODOLOGY

 Information and data regarding POLs were obtained by conducting four surveys. The first
 volved interviews with national associations representing physicians, medical technologisrs,in-
 bioanalysts , chemists, laboratory equipment manufactuers, hospitals and ILs.
                                                                                 The second
 was a survey of all 50 States , and the third involved interviews with 12 manufacturers of
 labor:nory equipment. Appendix A contains a list of those contacted.

 A fourth survey of 200 randomly ' selected physicians was conducted to ascertain the number
 of POLs in the countr. Physicians or their staff were asked if they performed laboratory tests
 in their offices, Physicians or staf who indicated they did were asked if their testing exceeded
   000 tests per year. Information regarding sample selection and methodology can be found ill
 appendix B.

 A literature search identified POL quality assurance studies. These studies
                                                                               , journal articles
 Federal and State reports (in final and draft), position papers and quality assurance guidelines
issued by varous associations pertaining to different aspects of testing POLs were reviewed.
In addition , representatives from HCFA , the Centers for Disease Control (CDC) and the Food
and Drug Admistration (FDA) were also contacted.

Laboratory testig   volume and payment information was obtained from journal articles
                                                                                           , pre-
vious studies, and from HCFA' s Par B Medicare annual data (BMAD) fie.

For puroses of this study, we define quality assurance as the overall approach to laborarory
testing that ensures the accuracy of the test results. Included in quality assurance are internal
quality control measures to ensure that appropriate procedures are followed in collecting and
preparng specimens, and in operating and maintaining equipment. Quality control measures
also include the use of vald reagents, equipment calibration and systematic procedural
checks, error detection and correction , and the review and reportng of test results.

Also included in quality assurance is proficiency testing. Proficiency testing is defined as an
external form of quality control which involves sending specimens to a laboratory for
analysis. The specimens, although labeled as proficiency testing samples, contain constituents
in amounts unkown to the laboratory. The laboratory performs testing on the proficiency test­
ing samples and sends the test results to the proficiency testing organization for evaluation.
This organization determnes whether the results fall within a prescribed range of grading
criteria.
                                             FINDINGS

 Estimates of the number of POLs and the type of testing perfonned in them vary widely.

 Finding:
        Based on our national surey of 200 physicians, we estimate the number of POLs to be
        approximarely 98,400. To our knowledge , this survey is the first of its kind to estimate
        the number of POLs using random sampling techniques.

 Shortcomings in data maintained by HCFA and the States, coupled with the diversity in es­
 timates as to the number of POLs , were instrumental in our decision to sample physicians ro
 arve at our own estimate as to the number of POLs. We asked 200 randomly selected
 physicians or their staff if they conducted laboratory tests in their office and if they estimated
 they performed over 5, 000 tests a year. (It should be noted , that for survey purposes, the
 definition of " test " was determned by the respondent.) Based on our national survey, we es­
 timate there are 98,400 POLs and approximately 34 000 of them perform 5 000 or more tests
 annually. Appendix B provides more detail on our sample methodology.

The BMAD fIe can be used to identify physicians biling for laboratory services and to derive
volume and payment data. This fie cannot identify the number of POLs because physicians
are allowed to hold multiple provider numbers , and because the biling codes showing where
services were performed are often inaccurate.

The 16 States that govern POLs admt they too cannot identify the total number of POLs
operating within their States because: (1) all but 2 exempt some POLs from regulation: and
(2) most depend on the physician to voluntary identify the laboratory site. Those States that
require POLs to be licensed, as a condition for Medicaid payment , may have greater success
in identifying POLs. The 34 States that do not regulate POLs also admt they cannot provide
an accurte estimate of POLs operating in their States.

Other estimates as to the number of POLs var from 20, 000 to 200 000. This variance is due
to: (1) lack of uniform POL definition; (2) absence of uniform State regulations; (3) depend­
ence on self-reporting by physicians who operate laboratories; and (4) absence of Federal
defimtions and regulations. 



Medicare and most States do not specifically define a POL. Most States that regulate POLs
defme a POL as one where physicians use a laboratory to perform tests for their own patients;
as one operated by severa physicians for the benefit of their own patients; or as one that does
not accept more than 99 specimens per category per year from another source. Medicare ex­
empts frnm regulation any laboratory maintaied by a physician for his patients, provided the
laboratory does not accept over 99 specimens from physicians outside the practice during a
calendar year.
  Finding:
        The complexity of testing in POLs vares widely, as does the type of equipment being
        used. This is largely because there are no restrctions on the type of testing that POLs
        can perform.



 Data indicate that POLs are usually operated by primar care physicians; e.
                                                                                , family prac­
 titioners, pediatTcians and internists. They are likely to perform one or more of the
                                                                                       following:
 analysis of urne , blood sugars, p esence of blood in stOols and white blood counts.
                                                                                       These
 tests are common because they ar easy to perform , provide rapid results
                                                                           , and do nOt incur
 large overhead costs.

  Advances in medical technology have allowed physicians to expand the scope and complexity
  of their testing. Some POLs have evolved to such an extent that it is impossible to distinguish
  the nature of their testing from that conducted in Medicare cenied independent and hospital
  laboratories. Test menus offered by some POLs are more extensive than those offered by
 some regulated laboratories. This is supported by Medicare payment data for
                                                                                 1986; which in­
 dicate that complicated , quantitative procedures, such as r'ldioactive immunological assays.
 aerobic bacterial cultures, and Pap smear, are performed in POLs. Appendix C lists the proce­
 dures most often biled as being performed in POLs during 1985 and 1986. Topping
                                                                                        these
 lists is urnalysis. In both 1985 and 1986, more than 45 percent of all Pap smears biled to
 Medicare were claimed to have been performed in POLs.

 This range in POL testing is due to the advancement in laboratory technology. LaboratOry
equipment is marketed to POLs based on desktop utility and its purported "
                                                                             en-or- free " opera­
tion. It is priced to accommodate any physician s practice and budget. The range of technol­
ogy and price goes from simple dipstick reagent strps for urinalysis, which can be
                                                                                      purchased
for $5 - $10 from the local drg store, to sophisticated analyzers incorporating microprocessor
technology available for $3, 00 - $50, 00 from maufacturers or their distrbutors. A
physician is limted only by whether the size of the practice (curent or projected) can
                                                                                          SUppOI1
the initial investment and the fIxed costs of operating and maintaining the equipment.


Quality of POL testing concerns respondents; many believe the greatest risk comes from the
lack of training and attention to quality control

Finding:
      Quality of testing in POLs concerns almost all of the 79 respondents contacted in the as­
      sociation , State , and manufacturer surveys. Staff qualifications and training, and the
      lack of proficiency testing are their primar concerns.

Testimony regarding inaccurate laboratory test results was heard at a number
                                                                              01 recent con­
gressional heargs. Many of our respondents related anecdota stories similar to those heard
by Congress. One respondent , representing a laboratory equipment manufacturer
                                                                                  , reported
receiving a call from a POL employee who wanted to know " where do you get the serum?"
The " serum " was the patient blood sample needed to run the test. Most
                                                                        of our respondents,
   knowledgeable and expert in this area , believe a national problem exists and that there ShOll!,
   be Federal intervention in this area.

   State concerns focused on the lack of quality control procedures and untrained staff. All
  professional associations representing laboratorians had grave concerns regarding the quality,
  of testing in POLs. The lack of mandatory quality
                                                     assurance programs, proficiency testing,
  and untrained or unqualified staf were
                                           problems most often mentioned by these respondents,
  All of the laboratory equipment manufacturers agree there are difficulties in maintaining
  quality control in POLs. Many felt that physicians were reluctant to commit the necessary
  staff time and resources needed to maitain adequate
                                                             quality control. They believe , as do
  others, that POLs lack an understanding as ro the purpose of quality control in the laboratory,
  One respondent summed up the problem by stating that POL personnel (physicians, physician
  assistants, nurses, receptionists) are " people oriented
                                                           , not technicaly oriented.
  Most of the laboratory experts we spoke to , and the studies we read
  of today s modern analyzers to produce accurate test results rapidly., acknowledge
                                                                         However
                                                                                       the ability
  sources also point out that equipment and reagents                              , these same
                                                      ar not total error- free. If equipment is
 properly maintaied and calibrated, and if valid controls of known composition are run in con­
 junction with samples of unkown composition
                                                  , the results produced are highly reliable.
 To achieve valid test resulrs, specimens need to be properly obtained and prepared for
 analysis. Equipment must be properly calibrated
                                                     , and controls run. More important , the
 operator must rigidly adhere to the manufacturer
                                                     s recommended procedures. Many believe
 that the greatest risk of error comes from the operator
                                                          s lack of training and attention to
 quality control , rather that the equipment itself.

Laboratory equipment must be approved by the FDA before it can be marketed. The FDA
process assures that analyzers are capable of consistently producing accurate results. The
FDA does nOt address the risk of error or the likelihood of inaccurate results from
operation or complexity of equipment.                                               improper

While there are few independent sources to confirm equipment manufacturers
consumer group called the Emergency Car Research Institute has begun (bur ' claims,. one
                                                                             nOttoyet
published) independent evaluations of medical devices, including those targeted    POLs. The
American Association for Clinical Chemistr is
                                               also considerig evaluating laboratory equip­
ment used in POLs.

 One study indicates that approximately two-thirds of those conducting testing (including
physicians) have little or no formal laboratory training. Another study indicates 44 percent
have little or no formal traiing. Our respondents felt that POL employees have inadequate
trning, and as a result often do not recognize that something has
the equipment , or the reagent that may have compromised the accuracyoccured with the sample.
                                                                          of laborarory test
results. Other studies indicate that larger group practices, doing high-volume and more com­
plex testing, often employ qualified laboratory technicians, thus
                                                                  gratly reducing   this risk.
  Physician association representatives recognize that POLs have problems replicating test
  results and realize that regulation is inevitable. A paper entitled " Regulation of Office
  Laboratory Testing in the Physician Offce " presented by Loschen and Steindel at the
                                                                                             19SfJ
  College of American Pathologists (CAP) conference, reflects the position of the
                                                                                      physiciLln rep­
  resentatives interviewed. The paper states:

        'vost primary care physicians who operate POLs recognize that there are some
        legin mate concerns about the quality and accuracy of the resulrs generated b
                                                                                      v some
        POLs. Although it would be misleading to say that POLs welcome Federal regularioll
        most physicians are reasonable enough to recognize the value of uniform regularury
       standards by which their laboratories ' performances could be assessed againstrheir
       peers ' performances. Most physicians also recognize that in the future , reimbursemem
       by Medicare might be tied to successful participation in laboratory improvement.
       proficiency testing, ' and accreditation programs. Physicians would generally
                                                                                      welcome
       the educational components of such a program.

       It is hoped that such regulation wil be reasonable in their expectations, as voluntqry as
       possible , and administered by the private sector, with geemed status being granted by
       the governmental regulatory agencies. Such regulations should
                                                                        make use of local
       pathologists and their technical staffs in the assessment and improvement ofrhe POL.

 Finding:
       Efforts by the private sector to address the quality of testing in POLs have
                                                                                    nOt been ef­
       fective because parcipation is voluntar.

. In 1985, representatives from the American Academy of Famly Practitioners
                                                                               , the American
  Society of Internal Medicine (ASIM) and the College of American Pathologists (CAP)
  the Commission on Laboratory Offce Assessment (COLA). The purpose of this commission    fomed
  is " to establish a volunta educational and assessment program to insure the quality of data

 produced in POLs, and to provide a mechanism for accreditation/certification. "

While still in the planning stages, COLA plans to become an independent corporation and
offer a volunta progr of offce laboratory assessment. The COLA'
                                                                             s program will include:
(1) an internal quality control system , (2) proficiency testing, (3) a self-assessment checklist
and (4) consultative and educational materials. Two Other associations
                                                                  , the National Council
on Clinical Laboratory Standards (NCCLS) and ASIM have issued or are developing quality
assurance guidelines for POLs.

Physician response to volunta quality assurace programs is reported to be low. While the
International Society for Clinical Laboratory Technology offers an accreditation program for
POL staff, overall there ar few training or accredited progrs
                                                                specifically desig. 1ed for
physician office staf. This is primarly because there has been linle demand for such
programs. However, a number of respondents stated they would be prepared to offer training
given suffcient demand.
   The CDC have offered training courses for laboratory personnel for a number of years at
   Headquarers in Atlanta. In an effort to reach a larger audience                                rh:-ir
                                                                    , CDC, laboratory and profes­
  sional societies are joining together to form regional consorta
                                                                  , offering training to laboratory
  personnel. These trning centers may consider offering
                                                            progrms directly targeted to POL
  staff if the need for such training becomes apparent.

  Like educational programs , all sponsors of proficiency testing programs admit to low POL par­
  ticipation. Proficiency testing has been available to
                                                          POLs for many years. The CAP offers
   the External Comparative Evaluation for Laboratories program
  and technical support to ASIM which offers the Medical Laboratory  , and provides
                                                                            Evaluationdata processing
                                                                                        program.
  BOth progrs are targeted for POL use. The American Association of Bioanalysts, manufac­
  turers and several States , including three States that regulate POLs
  ing modules for use in POLs. Approximately 3                           , also offer proficiency test­
                                                      000 POLs parcipate in the proficiency
  testing programs offered by CAP and ASIM. The exact number of POLs participating in State
  and equipment manufacturers ' proficiency testing programs is
                                                                   unkown.
 for proficiency testing indicate POL participation is very low. One           All of
                                                                        State told us these  sources
                                                                                      it offered
 proficiency testing to POLs for $65 a year. At this low
                                                          priee-. this State could not generate
 enough POL paricipation to warant continuation of
                                                       the program. Respondents generally felt
 that POLs which voluntarly engage in proficiency testing, represent
                                                                         the " cream of the crop.
 Finding:
       Association and State respondents overwhelmingly agree that proficiency testing, con­
       tinuing education or training, and record k eping should be included in a quality as­
       surance plan for POLs. Personnel standards were the most
                                                                  controversiaL
 Of the 79 State, association and manufacturer respondents, 25 felt that the same quality stand­
 ards should apply to all laboratories. Forr-seven respondents
                                                               believe different standards
 should apply based on a number of factors such as complexity of testing, type of personnel
 needed to operate the equipment, volume of testing, and size of group practice. Seven respon­
dents had no opinion or did nOt respond to the question.

In our surey of associations and State offcials, we included a list of possible quality stand­
ards and asked respondents to indicate which of these should apply to POLs. There was over­
whelmig consensus on four quality measures: (1) a written quality assurance plan
continuing education or trning, (3) proficiency testing and (4) record keeping.      , (2)

A wrtten document, deraling quality assurance measures
                                                         , and continuing education are two
elements considered essential to a good quality assurance program.
                                                                    Ourprocedures.
support continuing education and training with emphasis on laboratory   respondentsMany
                                                                                    strongly
                                                                                          feel
that for training to be effective, it should be adapted to the POL environment. One State
reports grateJ. success with " on-site
                                        " traiing at POLs.
The third qualty assurance element on which everyone agrees was proficiency testing. All
believe proficiency testing should be flexible enough to accommodate the type and sophistica­
tion of testing POLs.
 The fourth element considered essential was record keeping. Requirements respondents sup­
 port most strongly ar:



                       documentation that control samples were run and with what frequency (80
                       percent);

                       a written procedura manual for the techniques used for each test perfol1ed (92
                       percent);

                       a quality control log showing daily quality control measurements , problems
                       encountered , investigative and corrective actions taken (92 percent); and

                       wrtten procedures for routine maintenance and calibration of equipment, and a
                       repai log (92   percent).

Respondents feel that record format mattered less than the ability to reconstrct what has
                                                                                          ac­
tually been done in the POL. Others expressed concern that patient confidentiality be
protected and that record retention requirements be specifed.

While these four elements are endorsed by virally everyone as essential to a good quality as­
surance program , there was less consensus in the area of personnel qualifications. Seventy-
five percent of the respondents thought there should be restrctions on who can conduct
testing, but there was no agreement as to who should be prohibited from testing. Many
believe it depends on the complexity of the testing.

Few states regulate POLS; OBRA of
                                                   1987   is viewed as well-meaning but impractical.

Finding:
          The 34 States that do not regulate POLs cite lack of legislative support or funding as the
          most common reason for nonregulation.

Thiry- four of the 50 States contacted do nOt regulate POLs, although 4 of these have some
form of legislation pending. Eighteen of these 34 States have no laboratOry regulations at all.
Sixteen of these 34 States have regulations pertaining to certain kinds of tests that could affect
POLs. For example, if a POL did premartal or prenatal syphilis testing, it theoretically should
be regulated in these 16 States.



These 34 States were asked why they did not regulate POLs. Most cited lack of general or
legislative support, includig statements to the effect that there was " no interest
                                                                                    " or " no need.
Some indicated a lack of funding to support a regulatory effort. Several Others mentioned ac­
tive physician opposition. Appendi D lists States that do not regulate POLs.
  Finding:
         Sixteen States , have legislation penaining to POLs. Identification of POLs is rhe
                                                                                            mo:;(
         difficult problem they encounter in regulating them.

  Sixteen States have laws regulating POLs , including two States that have laws but do
                                                                                         nOt en­
  force them , and three States that have passed laws but are stil developing implementing
  regulations. According to the respondents ' estimates, approximately 9
                                                                           000 POLs fall under
  some form of State regulation.

 States use a varety of criteria for determning which POLs come under regulation. The most
 common criteria ar: (1) size of group practice, (2) type or complexity of tests perfonned and
 (3) prerequisite for Medicaid reimbursement. Four States have a "
                                                                     tiered" system , where the
 degree of regulation depends on the " tier " in which the POL is categorized. Placement in a
 tier is usually determned by either the type or the complexity of testing. By the same token
 most States exempt some POLs from regulation based on the above criteria. All regulating
 States require certai POLs to proficiency test and some have mandated personnel require­
 ments. The char on the following page demonstrates the difference in the regulating
 programs we reviewed.

 Identification of POLs is the " loophole " or shoncoming mentioned most often by officials in
 States that regulate. Some States depend entirely on physicians voluntarly coming forward
 and identifying themselves. Other States sent out mass mailings to all licensed physicians re­
 questing they come forward and identify their POLs. Stil Others require
                                                                           all POLs to register
 and disclose whether they meet the criteria for regulation or exemption.

The States that require POLs to be licensed or registered as a condition for Medicaid payment.
or the two that use reimbursement data to taget " pOtentials,
                                                              " have a better chance of identify­
ing POLs. However, most States do nOt have the personnel
                                                             , time, or financial resources to
find POLs who have not identifed themselves, or to validate the
                                                                   information provided by
POLs.

Other regulatory shortomings mentioned were the inadequacy of group practice size as an in­
dicator of testing volume or complexity, the inabilty of State regulations to keep up with rech­
nological changes , and the " voluntar " aspects of some State regulations on proficiency
testing. Another shortcoming appears to be the lack of a viable mechanism to identify POLs
in violation of State laws.



On-site inspection of POLs vares tremendously from State to State, depending on the
                                                                                         tOtal
number of regulated POLs in relation to the State s staff and funding. We did
                                                                                nOt specifically
ask the States about the frequency and content of their inspections. However
                                                                              , staff from one
State said they " had the authority but have nOt done many
                                                           " because of a shortage of man-
power. AnOther, with 200 " regulated" POLs, has been able to inspect only 50 so far. Two
States with regulations pendig anticipate doing on-site visits only when proficiency testing
performance shows a problem, or in response to a complaint.
                                                  S'         RmCN OF FHCI'                             OFFCE


                                Regul at i on    Criteria                                                Require8nts of POls Subject   to Regulation

                                                                       All State labs Must
                       110.          Test             Medicaid         Register CR) or do
      State                                                                                              Proficiency On- site    Quality Personne
                       Group     COI l ex i ty    Rei8brsetnt          Prof i c i ency Test ing CPT)     Testing    Inspect ions Control S t anda rd
      California
        Licensed
        in PT pgrll



  Fl or i da

  Idaho

  Naryl and
    Perlli ts
       inPTpgrlD

 Nassachuset ts

       Full   lic.
       Ltd lic.

                                                                                                                                          Director
 N i ch i gan


 Nevada
                                                                                                                                          Director
Oregon
                                                                                                                                          Cirec:t(JI"
Pennsylvania
      Level
      level 2

      Level 3



IJ.    Vi rgini a

IJiscons.in
                                                                                                                                         Director
HIJ -    current State la      has authority to        reqire
                                                  proficiency testing in POLs , but has never exercised this authori
IL - recently passed la   regarding POLs , but is still developing i8ple8nting regulations

/lE - recent ly passed la regarding POLs . but is sti II developing
NJ . current State definition of .

                                                                                      i8ple8nting
                                                                                 regulations
                                   clinical laboratory. includs physician
      iaplemnting regulation . including provisions                                           grou practices of 4 or
                                                                                                     8Ore; revisions of
                                                      speific to POLs . ..ndted before the
Jt - has 3-tier syste8 based on           typs of tests                                             1988             en of
                                                 perfor8e. Due to li.ited resources . little 80re than .educational
      surveys of POLs has been         don.

;ource:        .State Regulation of Physician Office Laboratories
               January 1986. Suppletnted
                                                                                . Gorove , C. . et.    al.
                                                                                                    . Laboratory Medicine , Yol          , No   .t
                                                  by OAf discussions         ith State regulatory agencies . 1988.

 Finding:
        While many respondents believe that OBRA of 1987 is a well-meaning attempt ro
                                                                                          regu-
        late POLs , they ar concerned about the practicality of implementing the statute.

 Most respondents feel that implementation of OBRA of 1987 would be extremely difficult.
  Test, " as used in the statute, would need to be more clearly defined. Furthermore, identifying
 POLs perfonnng over 5, 000 tests annually without access ro nongovernment data woujd be
 problematic, in that HCFA would most likely have to rely on the physicians ro identify them­
 selves, their laboratory sites, and rhe volume of testing they perform. Physician self-
                                                                                         identificl-
 tion was a major problem mentioned by both regulating and non-regulating States. Some
 respondents feel that the statute wil never be implemented because the cost of implementation
 wil be prohibitive or because of intensive political pressure from physician groups.


 Finding:
       Applying current Medicare II standards to POLs may be costly, and could increase the
       currnt HCFA workload by a factor of seven.
The OBRA of 1987 , under one deparmental option , would allow HCFA to apply Medicare
requirements to " high-volume " POLs. The Medicare II requirements
                                                                         include: (1) compliance
with applicable State and local laws, (2) personnel qualifications, (3) proficiency testing, (4)
environmental safety compliance, (5) maitenance of adequate records, (6) adherence to stipu­
lated qualty control procedurs, and (7) on-site review.

Our survey estimates that there are 98,400 POLs in the countr and approximately 34
                                                                                          000 per­
formng over 5, 000 tests annualy. It should be noted that we did not define "
                                                                               test " in our POL
surey because OBRA of 1987 does not define this term. Therefore interpretation was left to
the individual respondent. The HCFA estimates 100, 000 POLs in operation and believes that
the majority of them perform over 5, 000 tests per year. These estimates vary
                                                                               nOt only because
there is no uniform definition of a POL , but also because there is no uniform definition of
 test " Multiple tests (caled " profies ) ar sometimes counted as one test and sometimes as
more than one test. Should a " test " be defined as an individual component of a profile or
panel , then it is possible that most POLs would exceed the 5 000 test threshold and the cost of
regulation would be higher than estimated below.



The HCFA regulates approximately 4      500 IIs. Should provisions of OBRA of 1987 be imple­
mented by imposing Medicare II standards on POLs , we doubt that the II certification
process, as it cUITently stands, could remain effective with such an increase in workload. The
HCFA indicates that precise projections for the anticipated costs of regulating POLs will vary
depending on the scope of the regulatory model selected and the size of the regulated popula­
tion. Applying curnt Medicare II standards to POLs would have to include at a minimum
the following:

            costs to hir additional HCFA and State staff to process paperwork and to track
            proficiency testing;
              costs to hire and trai     State surveyors to   perform required on-site revie\\.s:

              costs of surveying the 34 000 POLs performng over 5 000 Medkare and non-
              Medicare tests per year (an estimated $61 milion annually at $1 800 per visir);

              carer costs to reprogram computer systems to monitor POLs and ensure that pay­
              ment is made only for those tests where proficiency testing scores are acceptable
              (estimated at $1 million); and

              hearngs and appeals costs resulting from adverse actions taken against POls (es­
              timated at $1 million).

 This paral listing of potential costs totals at least $63 million if Medicare IL standards are im­
 posed on " high volume " POLs. The HCFA anticipates additional unidentified costs that can­
 not be estimated and foresees problems that would have to be resolved; e. , use of multiple
 provider numbers, limitations of curent billng codes, and proficiency testing categories.

Finding:
       The majority of respondents feel that all laboratories should be subject to some fOI1 of
       Federa regulation regardless of site or volume of testing. Many believe quality stand­
       ards should be based on the type and the complexity of testing being performed.

The majority of respondents welcome some form of Federal POL regulation; however, there
was no agreement regarding whether IL standards should apply to POLs. Respondents felt
patients should be assured of the accuracy of their laboratory tests regardless of where they are
performed.

As previously mentioned , respondentS were concerned that staff conducting laboratory testing
be adequately trained. These same respondentS also stated that many people working
laboratOries, doing the same procedures daily, can produce highly accurate test results.
                                                                                          Many
respondents believe the ability to consistently produce accurate test results depends on proper
initial traiing, periodc review of test technique and parcipation in ongoing refresher cour­
ses. Discussions regarding who should perform the tests and what training and experience
were necessar, often focused on the complexity of the equipment and the degree of human in­
teraction requird   to perform a test.


A wide range of laboratory services are conducted in POLs. Some of these tests should only
be performed by an experienced , qualfied medical technologist , because the risk of error as­
sociated with these procedures is extremely high. Our respondents felt that the type of equip­
ment and the complexity of reagent prepartion and technique, coupled with the degree of
subjectivity in interpretation of tests, should be factors taen into consideration when making
decisions as to whom should perform laboratory tests.

The ability of a laboratory to consistently produce highly reliable results is the ultimate goal of
regulation. All laboratories should be held to uniform standards which facilitate accurate test­
ing. Based on our   study, we conclude that in order to develop uniform quality standards. 


tional study is needed to: (1) determne the degree of risk associated with equipment in ldcir­
                                                                                           LIse:
(2) assess the potential for error due to complexity of equipment , test procedure and Other fac­
tors; and (3) determine the degree of traiing required to minimze errors.
                                    RECOMMENDA TIONS

 RECENT EVENTS


 Following the Inspector General' s congressional testimony regarding POLs and the release of
 our draft report in June 1988, Congrss passed and the President signed into law
                                                                                     CLIA
 1988 (P. L. 100- 578). Specifcally, this legislation mandates laboratOries, including POLs biJI­
 ing YIedicare, to be certified under the Public Health Service Act and meet specified standards
 ad inspection requirements. Laboratories that perform only drg testing and that are certfied
 for testing Federal employees are exempt. However, if the Secretar finds that certain criteria
 are met, laboratories may receive a certficate of waive from these requirements.


 DRAFT RECOMMENDATIONS - POLS

 Following ar the recommendations as they appeared in the draft report, and a description of
 the impact CLIA of 1988 wil have on all POLs biling Medicare. In effect , CLIA of 1988 re­
 quire implementation of our drt recommendations 1 , 5..and 7. The amendments
                                                                                    also in­
 corporate recommend ation 3 and include pars of recommendations 2 and 6.

 I. LONG- RANGE QUALITY ASSURANCE PLANNING

The ultimate goal of regulation is to assure that laboratories consistently produce highly reli­
able results. All laboratories , regardless of volume of testing or location site
                                                                                  , should be held to
standards that facilitate accurate testig.

       Recommendation 1: 
   We recommend that HCFA develop a laboratory         regulatory
       strategy, based on complexity of testing instead of volume or setting.

Congres onal Acnon

As previously mentioned, the amendments mandate quality standads for laboratories, includ­
ing POLs, based on the complexity of testig     in the laboratory, rather than on size or volume
of testing.



n. INITIAL         POL REGULATION

As a fIrst step toward a long-rage qualty assurce program , we recommend that HCFA con­
currntly move to: develop regulatory standards as set fort in recommendation 2 , and seek
legislative authority to regulate al POLs, per recommendation 3. This would enable
                                                                                    HCFA to
begin to collect the information necessar to develop quality assurance stadards, based on
complexity of testing, while meeting the need for initial action to regulate POLs.
  A. Quality Standards


         Recommendation 2: 
        We recommend that HCFA implement , through regularions pur­
        suantto OBRA 
         1987 quality standards for POLs that, at a minimum , require POL direc­
        tors to:

                    operate an internal evaluation of laboratory staff that ensures their proficiency in
                    conducting tests and operating equipment in accordance with appropriate quality
                    control mechanisms , including those stipulated by the manufacturer of the
                    equipment;

                   parcipate in laboratory training progrs       and provide conrinuing laboratOry
                   education for staff;

                   maintain a laboratory record keeping system which records all testing and
                   equipment maintenance activities; and

                   parcipate in HCFA-approved proficiency testing program.

 Congressional Action

In general , CLIA of 1988 require laboratories to operate a qualty assurance
                                                                                program that en­
sures reliability and accurcy of the test; that meets requiremenrs regarding collection
transporttion and storage of specimens, and that provides for properly maintained records,
equipment and facilities necessar for proper operation of the laboratory. In addition
Secrta may establish personnel qualfication for diction                                 , the
                                                              , supervision , and performance of
testing in the laboratory. These stadards shall take into
                                                           consideration competency, training,
experience, job performance, and education. The stadards may very depending on
                                                                                       the type
of testing being performed and the risks and consequences that erroneous results would cause
patients. Also, laboratories must parcipate        in approved   proficiency testing programs.
R Legislative Authority

To achieve an effective regulatory strategy, all POLs must be subject to regulation.

      Recommendation 3: 
         We recommend that HCFA, at the same time it develops the regula­
      tions discussed above , seek a technical amendment to OBRA 
 1987 that would remove
      the 5, 000 test volume requirement, thus giving HCFA the necessary legislative awhoriry
      to regulate all POLs.

If a technical amendment to OBRA 1987 is not fonhcoming by Januar
                                                                         1990, HCFA should
impose the qualty stadards,   discussed above, on POLs performng over 5, 000 laboratOry
tests per year. We recognize that implementation of an unamended OBRA 1987 wil require
HCFA to define a laboratory test and seek ways to identify " high volume
                                                                         " POLs. Eve:i if it be­
   comes necessar to begin regulation with just
                                                those POLs performing more than 5
   HCFA should continue to seek a technical amendment which would enable them to000  (eq
                                                                                  regulate
   all POLs.

  Congressional Action

  The CLIA of 1988 require all laboratories to submit an application and identify the typc and
  volume of testing being performed to the appropriate authorities.
  they may then receive a certficate of waiver which excludes themIffrom
                                                                      certain criteria are met.
                                                                          certain
                                                                               standards and
  inspection requirements. However, those receiving waivers must report any changes in the
  scope of testing within specified time frames. Thus, the intent of recommendation 3 has becn
  accomplished. The scope of testing in all POLs will be known and regulated to the ap­
  propriate extent.

  C. Implementation and Enforcement

        Recommendation 4:      We recommend that HCFA enoo1Jrage POLs to rely on
        tor, Federal , State and manufacturer programs like those offered by COLA private sec­

        CDC regional consortia                                                   , NCCLS and
                                , to provide them with quality assurance guidelines and exper­
        tise in implementing the quality standards indicated above.

 Congressional Action

 The CLIA of 1988 state that a laboratory (including POLs) may be accredited
 obtaining a certifcate, if the laboratory meets the                                , for purposes of
                                                         standards of an approved accreditation body
 and authorizes the accreditation body to release records and other information regarding the
 laboratory to the appropriate authorities. In effect
                                                         , quality assurce programs offered by
 private sector, State , and other not-
                                        for- profit organizations can be used by POLs to meet the
 certfication requirments, if these accreditation conditions are met.

       Recommendation 5:
                                   To implement the above quality standards and
                                                                                  monitor POL com­
       pliance, we         recommend that HCFA:

                  requir registration of all POLs biling Medicare; and

                  perform unannounced , random on-site inspections of POLs and inspection of
                  POLs which fail to pass proficiency testing.

Congressional Action

As mentioned earlier, under CLIA of 1988, all POLs must apply for a cenificate or a
In addition, the amendments provide for announced or unannounced inspections of waiver.
laboratories by appropriate authorities. These wil be performed
                                                                either on a biennial basis or
more frequently, if necessar, in order to determine compliance with certfication requirements
  and standards. The amendments also provide for on-site proficiency testing to assure com­
  pliance.

         Recommendation 6:               recommend that this POL regulation program include
                                   We further
         one or more of the following enforcement mechanisms:

                    that noncompliance with POL standards be grounds for removing the POL from
                    parcipation in the  edicare Program;

                    that failure to pass certain proficiency testing modules be grounds for suspension
                    of Medicare payment until the POL deficiency is corrected;

                    that failure to meet POL standards be grounds for medical licensure sanctions or
                    revocation;

                   that failure to register a POL , failure to proviCe. accurate information
                                                                                             concerning
                   a POL or noncompliance with POL standards, waive the physician
                                                                                           s right to a
                   defense on counts of negligence in malpractice cases involving laboratOry

                   testing; and

                   that physicians operation POLs be required to anest to compliance with POL
                   standards; in cases of misrepresentation , civil monetar penalties and other
                   sanctions could be invoked

Congressional Action

Besides providing for suspension , revocation or limitation of laboratory
                                                                           s certificate, the
amendments also provide for intermediate sanctions if the laboratory is found to no longer sub­
stantialy meet the requirements for certcation.
                                                   Intermediate sanctions may include directed
plans for corrction , civil monetar penalties , payment of costs for on-site monitoring or any
combination of the above.

D. Cost Management

On-site inspection of laboratories is essential to information gathering, educational endeavors
and enforcement. It is, however, costly. The HCFA estimates the cost of surveying ILs to be
$8. 1 millon annually. The cost of radom and targeted visits to POLs could increase these
costs by a factOr of five.

      Recommendation 7: 
   We recommend thaI HCFA offset these costs by imposing
      registration fee on all Medicare certifed laborarories. The total fees should not exceed
      deparrmental costs for performing on-site inspections. Imposition of a regisrrationfee
        could save the program an estimated
                                                $43.5   milion annually. Further details are
        provided on pages 24- 25.

  Congressional Action

 The CLIA of 1988 alow the Secretar to collect a fee from each laboratory applying for a cer­
 tificate. A nomial fee is required for the issuance and renewal of a ceI1ificate of a waiver.
 The amendments state that the fe s shall cover the general costs of
                                                                     administerig   the certifica­
 tion progr, including the evaluation and monitorig of approved
                                                                      accrediting bodies. Addi­
 tional fees wil be charged for the inspection for laboratOries not accredited by an approved
 body, and for performng proficiency listing on laboratories which do not paricipate in ap­
 proved proficiency testing programs. These fees must be sufficient enough to cover
                                                                                          the entire
 cost of the above activity.

 The amendments stipulate that the fees should var by group or classification of laboratOries.
 The secretar has discretion in determining the amount of fees, however, it may
                                                                                  var based
 the dollar volume and scope of testing being performed.
                                                         Inosition  of  a registration fee
 should save the Deparent milions of dollar that would have otherwise been spent on the
 registration and inspection of laboratories. Progr savings resulting from the fees can be cal­
 culated as soon as the fee schedule has been set

 RATIONALE FOR DRAFT RECOMMENDATIONS

 With emphasis on POL ability to produce consistent acceptable outcomes, we believe initial
quality standards for POLs need not be identical to curent Medicare IL
                                                                           standards. At a mini­
mum , physicians or laboratory dictors should ensure that staff involved in testing have com­
pleted approved trning program(s) designed to sensitize them to the problems that could
occur in laboratory testing, and that they ar following recommended quality controls. The
POL records should provide an audit trail sufficient to assist sureyors in determining
                                                                                         the
cause of proficiency test faiures, and to evaluate the accurcy of
                                                                   tests performed. These audir
trail should enable sureyors to assess POL adherence to manufacturers
                                                                          ' recommendations for
equipment calibration and stadardization. Specimen collection and test methodology records
should also show what tests were performed in the POL, that controls were run, and at what
frequency.

 States that regulate POLs indicate that identification of physicians operating
                                                                                laboratOries is the
biggest problem they face. Requirg physicians to register each POL site they operate, as a
condition for receiving Medicar payment , wil provide a needed incentive for physician
cooperation. This registrtion requirment should identify most POLs operating in the
countr, includig those operated by physicians who do not
                                                               bil Government programs. Ser­
vices not payable under the Medicare progr ar not payable by Medicaid and often are
                                                                                              nOt
payable by other third pares. We believe this wil provide additional incentive for registra­
tion of POL sites.
 Identification of all sites where blood , urine, tissue and other specimens derived from the
 human body ar analyzed is prudent and necessar in ensuring the health and safety of the n:l-
 tion and the quality of laboratOry  results. Implementation of registration as a condition of pa: ­
 ment would be relatively simple. Anyone billng for laboratory services, would need to
 identify the registered site on their claim. Since fields for this aleady exist on
                                                                                    Medicare paper
 claims and on electTonic media claims, implementation could occur quickly and without exten­
 sive change ro current systems are now required to recognize certfied II sites and the special­
 ties they perform.

Our purpose in proposing mandatory proficiency testing is to enable independent measure­
ment of the quality of POL testing. Despite some problems with proficiency testing by un­
scrupulous providers, we feel it is stil the best measure of the q ality of a laboratory
                                                                                         s testing.
Failure to arve at an acceptable result for aproficiency challenge would result in an on-site
visit, the purpose of which would be to determne the cause of the failure and to correct the
situation. On-site visits to other laboratOries would be conducted at random and in proponion
to funds available from registrtion fees.

A laboratory registration fee would be paid to register each faboratory site. These fees would
be used to offset the expenses of on-site visits. The HCFA currntly surveys approximately
    500 IIs, at an estimated cost of $8. 1 million annually (4 500 x $1 800). Assuming 10
                                                                                           per­
cent of all POLs are randomly surveyed each year, surveying costs for POLs could amount ro
$35A    milion annually (19, 680 x $1 800), for tota annual surveying cost of $43. 5 million
     500 + 19 680 x $1,800).


We believe on-site inspection of POLs is essential to information gathering as well as to enfor­
cement of POL regulations. However, the cost of such a progr wil be expensive. In addi­
tion, many State respondents indicated that the cUIent II sureying program is understaffed
and underfunded. To rectify this situation , we recommend a registrtion fee be
                                                                                  imposed on all
IIs and POLs biling Medicar. Assuming that 4 500 lls and 19,
                                                                    680 POLs are surveyed each
year at $1 800 per site visit, charging lls and POLs a registration fee of $425 per year would
make the laboratory survey program budget neutral and save the program approximately
$43. 5   millon dollar. Additional    savings, which cannot be estimated, would be realized by
improvements in the quality of POL testing.
                                       APPENDIX A
 INSPECTION CONTACTS


ASSOCIA TIONS

          American Academy of Famy Physicians
          American Association for Clinical Chemistr
          American Association of Bioanalysts
          American Clinical Laboratory Association
          American Hospita Association
          American Medical Association
          American Society for Medical Technology
          American Society of Clinical Pathologists
          American Society of Internal Medicine
   10.    Clinical LaboratOry Management Association
   11.    College of American Pathologists
   12.    Commttee on Office LaboratOry Assessment
   13.    Health Industr Manufacturers Association
   14.    International Society of Clinical Laboratory Technology
   15.    Joint Commssion on Accreditation of Healthcare Organizations
   16.    National Accrediting Agency for Clinical LaboratOry Science
   17.   National Council for Clinical LaboratOry   Standards




MANUFACTURERS

         AbbOtt Laboratories
         Becton Dickenson      Prar Care Diagnostics
         Coulter Diagnostics
         Diagnostic Division of Miles Inc.
         Eastman Kodak
           L. DuPont de Nemours & Company
         Electro- Nucleonics
           M Diagnostic Systems
         Labsystems
  10.    Oron Biomedical
  11.    Sequoia- Turner Corporation
  12.    Technicon Instrments
APPENDIX B

                                APPENDIX a

                         POL SURVEY METHODOLOGY


This study used a two- stage cluster sample to estimate the number

of physician office laboratories (POLs) nationwide.
                                                       The Statesto

were selected at the first stage with probability proportional
size, where the size of the State was determined by the ,
number of laboratory procedures billed under Medicare Part B
 total
during 1985. The information on the total number of laboratory

services was obtained from the Health Care Financing

Administration' s 1985 Part B Medicare data
selected for inclusion in the     survey.
                                               file.Ten States were
                                         The following table gives
the States selected , the corresponding estimated total number of

laboratory services and the proportion that total is of all

laboratory services for      1985.
                                 This proportion represents the
probabil i ty of selection associated with each
                                                State.

                                     Number        Percent
      Carr ier                  Lab Services       of Total
    Aetna Oregon
                    12, 651          09%
    Florida BS                       99, 694          59%
    Aetna Oklahoma                   12, 516          08%
    Pennsylvania BS
                 53, 678          63%
    Prudential NC                    33, 908          92%
    Illinois BS                      42, 234          64%
    BS of Greater NY                 60, 610          22%
    Kansas BS                        10, 193          88%
    Gen'l Am Life (Missouri)         14, 587          26%
    Prudential GA                    25, 842          23%
    Sample Total
                365, 913       31. 53%
    Total of All    States     1, 160, 530     100.

At the second stage of sampling, each selected State was

contacted and requested to provide a listing of all physicians

licensed in that State. Three of the selected States were unable

to provide this    listing.
                          Each of these three States were,
instead, asked to provide a listing of the name and address for





         Numbers presented are from a 1% random sample of all

         laboratory services in calendar year 1985.
                                                                            Piece of Service (BHAD 85)
                                                                                                                                                           Piece of Service (BHAD 86)

                                                             PhYllclenl Office         ToUI
 "CPCS                      NAME
                                                                                                                                             Phyelclens Office        Totel
                                                                       Allw          X of     Tot                   Allw                          All..   X of lot                Allw
87210    S.e.r ,Prl..ry, w, Interpret. (wet .ount)       1 , 590               '82    92.              1 , 717       111 113          750        510 822     91.
83718    MDl Chol. : Preclp. Method                        566         117 , 137      25.                056                                                              907     111 912
                                                                                                                     166 343       1 , 895       122 521     18.          166
80006    Auto teltl: 6 che.l.trlel                         549         '17 910        30. 1 X
                                                                                                                                                                                 5117 423
                                                                                                         150         158 181          437        116 900     25.
87205    loutlne S...r . Prl.ery, w, Interpret.            514                 131    59.                                                                                 703     162    976
                                                                                                         536         '15 674          521             198    56.          700
81088    Ilcteri. Culture . Urine , Identlflc.tlon         510        '16 661         40.               , 775
                                                                                                                                                                                  116  512
85044    Ilood Count: letlculocyte Count
                                                                                                                     '40 604          063        123 099     36.          671     163  352
                                                           417               . 745    54.                 592        116 103
84419    Triiodothyronine (T-3). le.ln Upt.ke                                                                                      1 , 280           997     46.          753     117
                                                           336        '13 251         18.               , 100        162 522                                                           346
                                                                                                                                   1 , 366       114 063                 , 296
87060    'ecterl. Culture. .eroble . thro.t or no..        311            895         66.             1 , 962
                                                                                                                                                                                  192  810
82756    Free Thyroxine Index (T-1)                                                                                  120 850         507         115 396     74.        , D28     121 386
                                                           163            868         24.                 720        171 271         969         S15 281
84420    Theophyl line. Ilood or S.llv.                    141                                                                                               15.         252      195 674
                                                                      '23 042         38.                 990        160 488         549         131 257     36.
83036    "e.oglobln: Glyeolyl.ted (A1C)                    144        115 958         33.                                                                                223      186 286
                                                                                                         401         S48, 356        388         S19 , 209   29.
87081    '.eterl. Cultur.. .ereenlng. lingle org.nll       113            608         74.                                                                                644      166 125
                                                                                                         504         '13 850         024               685   67.
88302    Surele.l P.th: pre.U8. nor..t                     018        128 615         16.                                                                                512      S 14 005
                                                                                                         618        1169 974         781         520 972     13.         742     5149 114
                                                       49J. 115    IJ. 500    834    51.            864 409          515 233     479 412         538 514             891 422      298 415
                         Tot.1 l.b.
                   544 250 14. 251 421           51. OX         066. 860     1". J61   923   5J5, 404        363 452             133 011 112 972 132
APPENDIX D

                            APPENDIX D


                  STATES REGULATING LABORATORIES


STATE                                 POL



ALABAM
ALASKA
ARIZONA
ARKASAS
CALIFORNIA
COLORADO
CONNECTICUT
DELAWARE
DISTRICT OF COLUMBIA
FLORIDA
GEORGIA
HAWAII
IDAHO
ILLINOIS
INDIANA
IOWA
KASAS
KENTUCKY
LOUISIANA
MAINE
MAYLAD
MASSACHUSETTS
MICHIGAN
MINNESOTA
MISSISSIPPI
MISSOURI
MONTANA
NEBRASKA
NEVADA
NEW HAPSHIRE

NEW JERSEY
NEW MEXI CO
NEW YORK

NORTH CAROLINA

NORTH DAKOTA

OHIO
OKLAOMA
OREGON
PENNSYLVANIA
RHODE ISLAD
SOUTH CAROLINA

SOUTH DAKOTA

STATE                                   POL


TENNESSEE
TEXAS
UTAH
VERMONT
VIRGINIA
WASHINGTON
WEST VIRGINIA

WISCONSIN
WYOMING
PUERTO RI




Sources:
    Steindel, Steven J. "Legal Issues Associated With Physician

    Office Testing,   Journal of Medical Technoloav 4: 3

    May/June 1987

   OAI telephone interviews with State officials   (no interview
   with Puerto Rico).

BIBLIOGRAPHY

                          ---   , "





                                             BIBLIOGRAHY

   American Clinical Laboratory Association. 

                                                 Submission of the

 American Clinical Laboratorv Association in SUDDort of

 Leqislation to Remedy Problems Created bY Primary Care Physician-

 OwnershiD of Laboratories . Washington , D. C. 
 American Clinical

 Laboratory Association, June 1987.
   American Society of Internal Medicine.   The Internist:. Health

 Policy in Practice   Washington, D. C. : American Society of
 Internal Medicine, Vol. 28 , No. 8, September 1987.

      Austin ,     Beth. "Future of Physicians' Office Labs: A            High-tech
 Version of the Past,                  American Medical News , October 3 , 1986.

   Baer, Daniel M. "Regulation of Physicians' Office
 Laboratories. Medical Laboratorv Observer , November 1987.
  Belsey, Richard, Michael Greene, and Daniel Baer. " Managing
Liability Risk in the Office Laboratory    JAM , Vol. 256 , No.
  , September 12, 1986.

  Birenbaum, Mark S   "Where Medicare' s Test Work Is Going,
Medical Laboratorv Observer , December 1985.

     Blanchard, Michael R. "
Connecticut: ImplicationsPhysician Office Laboratory Testing in
                           for Accreditation and Regulation
Journal of Medical Technoloqy , Vol. 4, NO. 3, May/June 1987.
  Carter, Kim. "Spurred by Blue Shield Decision, Philadelphia

Physicians Starting Lab,   Modern Healthcare. January 16 , 1987.

  Centers for Disease Control, Training and Laboratory Program

Office ,Division of Assessment and Management Consultation.
ProDosed Uniform Proficiencv Testina Proqram for Clinical

Laboratorv ImDrovement Act of 1967 and Medicare Laboratories

Atlanta, Georgia: Centers for Disease Control, August 1987.
  Center for Medical Consumers. "The New Quick and Easy

Cholesterol Test     Some Caveats     HealthFacts New York:
Center for Medical Consumers , Vol. 12, No. 97 , June 1987.


  Cohn , Jeffrey P.  In-Office Blood Testing Adds Speed , But
Experts Worry About Its Accuracy,   Washinaton Post , February 24
1987.
  Colburn,         Don.
                 "Medical Testing: An Uncertain Science - Labs
Alone Do Not Determine the Accuracy of Results,  Washinqton
    , March 8, 1988.

   College of American Pathologists.                     Quality Assurance in
 Physician Office. Bedside. and Home                Testin      - CAP
 Conference/1986 . Skokie ,            Illinois:         College of American
 Pathologists ,        1986­

  Fischer, Paul, and Lois Anne Addison. "The Office Laboratory
 Director' s Guide JAM , Vol. 254, No. 20, November 22/29 , 1985.
           Fischer, Paul,
                        and Lois Anne Addison , Elmer W. Koneman , and
 Julia Crowley. " Educ        tion and the Physician' s Office
 Laboratory,         JAM , Vol 255, No. 11, March 21, 1986.
       Gallivan, Mary. "Physician         Offices Invade Clinical Laboratory
Market           Hospitals ,   October 16 , 1985.
  Gorove, Carol, Catherine Grealy Cohen, and Ralph Korpman.

"state Regulation of Physician Office Laboratories,   Laboratory
Medicine , Vol. 17 No. 1, January 1986, pp. 44-48.
       Grayson ,   Robert Thomas. "Effects         of.     egulatory Controls on the
Accuracy of Clinical Laboratory Tests
                      Journal of Medical
Technoloqy         , Vol.
                 1, No.  , August 1984.
  Gurny, Paul A_ , and Thomas A. Cloptori. "Medicare Outpatient

Clinical Laboratory Services Payments: Relative Value Scale
Approach,   Health Care Financinq Review , Vol. 8, No. 2, Winter
1986.
  Gwyther, Robert E., and Bradford L. Kirkman-Liff. "Laboratory
Testing in the Offices of Family Physicians,
 American Journal
of Medical Technoloqy , Vol 48 , No. , August 1982.

  Hamlin, W.        B., J.
                  K. Duckworth, P. R. Gilmer, Jr., and M.
Stevens.  Laboratorv Instrument Maintenance Manual    College                   of
American Pathologists, 1977.
      Hospi tals. "Harnessing the Energy in Group Practices,

Hospitals , April           5, 1986.

  Hutton, Polly. "Physician' s Office Laboratory Regulations

Laboratorv Medicine , Vol. 19, No. 1, January 1988.


  Jackson, James A., and Jolynne Campbell. "State Regulation of
Physicians' In-office Laboratories
 American Clinical Product

Review , February 1988.
  Journal of the American Medical Association. "How Will Changes

in Physician Payment by Medicare Influence Laboratory Testing,

JAM , Vol. 258, No. 6, August 14, 1987.
   Johnson, Patricia M. " Government Regulation of In-
 Laboratories: The Debate
                             office
                              Journal of Medical Technology , Vol.
                                  , II 


  , No.  , September 1985.
   Keil, Paula     R. "
                      Personal Reflections of a Medical Technolo
 in a Physician I s Office Laboratory,                                                      ist
                                         Journal of Medical
 Technoloqy , Vol. 2, NO. , September 1985.
   Kenny, Michael L. , and Don
 Assessment of CI inical Laboratorv RequlationsFinal Report on
                                           P. Greenberg.


 Inc. ,   April 8 , 1986.                          Macro Systems
   King, Mike. " Cholesterol  Test Results Inaccurate in Half of
 Nation's Private Labs , Study Says,   Atlanta Constitution

 February 9 , 1988.


   Laboratory Medicine, "Reimbursement Reform for Laboratories
 Laboratorv Medicine , Vol. , 15 NO. 6, June 1984.


  Laboratory Medicine. " Medicare and .
 Part II   Laboratorv Medicine , Vol. 17 , No. 3, March
                                                           Physician Reimbursement



                                                        1986.
  Laboratory Medicine. " Payment for Physician Services:
on Clinical laboratory Services                             Impact
                                    Laboratorv Medicine , Vol. 17

No. 5, May 1986.
  Lunz, Mary E. , Barbara M. Castleberry, Karen James
Stahl. " The Impact of the Quality of Laboratory Staff    on John
                                                       , and

                                                              the
Accuracy of Laboratory Results     JAM
   , 1987.

                                          Vol. 258 , No.      July
  McFadden , Karen C. "Clinics in Office Practice
Care                                                 Primary
       Philadelphia , Pennsylvania: W. B. Sanders Company,
13, No. 4, December                                        Vol.
                          1986.
  McKenzie , Shirlyn B., Consuelo M. Kazen, Linda
J. Banks ,
         and Consuelo R. Mahon. "Physician'       A. Smith , Loni
Laboratorians: What Do They Do? How Should They s Office
                                                     Be Educated?"
Journal of Medical Technoloqy , Vol. 2
                                       , NO.
 9, September 1985.
  Medical Laboratory Observer. "Regulators       Tread Softly on
Growing Office Labs,
       Medical Laboratorv Observer
, July 1985.

  Medical Laboratory Observer. "More Testing Than Ever Before
Medical Laboratorv Observer
, April 1986.


  Mummert , Kenneth. "Moni toring Lab Work on Pap Tests,
Eveninq Sun ,Baltimore, Maryland: November 23, 1987.                                  The
  Pesce, Michael A. "Instrument Systems for the Physician'

Office Laboratory,   Journal of Medical Technoloqy , Vol. 2, No.

9, September 1985.


March 11, 1988.
  Purdy, Matthew. "Heal th Lab Fraud cited by Experts - Congress
Told of Shoddy Work  Philadelphia Inauirer , Vol. 318 , No. 71,
  Roche Diagnostic Systems. "   Developments the Regulation of
                                               in
Clinical Laboratories)
Sumer 1987.
                      JI
                        The Diaanostic Reporter     , Vol.
                                                      1, No.

 Schmidt, Susan. "Md. Legislators Seek Stiffer      Regulation of
Medical Labs, The Washinaton Post , February 1,     1988.
  Steindel, Steven J. "Legal Issues Associated with Physician

Office Testing,   Journal of Medical Technoloqy , Vol. 4, No.

May/June 1987.
  Stevens, R. Carole, Rebecca B. LaVallee, Helen Cronenberger,

and Kit N. Simpson. "Training  and Educational Needs in Small
Office Laboratories,   Journal of Medical Technoloqy , Vol. 2, No.

9, September 1985.
  Wildermann, Robert F., and Kenneth A. Schneider.  "Regulatory
and Legal Influences on Physicians' Office Laboratories,   JAM
Vol. 256, NO. 2, July 11, 1986.
